NO. 20-1599
IN THE

Supreme Court of the United States
JOHN DOE 7, JANE DOE 7, JUANA DOE 11, MINOR DOE
11A, SEVEN SURVIVING CHILDREN OF JOSE L OPEZ 339,
and JUANA PEREZ 43A,
Petitioners,
v.
CHIQUITA BRANDS INTERNATIONAL, INC.,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

MOTION FOR LEAVE TO FILE BRIEF OF AMICI
CURIAE PARTNERS IN JUSTICE
INTERNATIONAL AND CENTER FOR VICTIMS
OF TORTURE AND BRIEF OF AMICI CURIAE IN
SUPPORT OF PETITIONERS’ PETITION FOR A
WRIT OF CERTIORARI
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I
certify that the amici’s Motion for Leave contains 302
words and their brief contains 4,582 words, excluding
the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.

1

Executed on July 8, 2021
_______________________
Christina G. Hioureas

2

